            DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Office of Inspector General
                                                                                   Office of Audit Services

                                                                                        REGION IV
                                        OCT     1 2008                      61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303




Report Number: A-04-07-06023

Mr. Bruce W. Hughes
President and Chief Operating Officer
Palmetto GBA
2300 Springdale Drive, Building 1
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of High-Dollar Payments for Inpatient Services
Processed by Palmetto GBA, Intermediary #382, for the Period January 1, 2004, Through
December 31, 2005." We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
P.L. No. 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR pt. 5). Accordingly, this report will
be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mary Ann Moreno, Audit Manager, at (904) 232-2687 or through e-mail at
Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-07-06023 in all
correspondence.

                                              Sincerely,



                                              Peter J. Barbera
                                              Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Mr. Bruce W. Hughes

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF HIGH-DOLLAR
   PAYMENTS FOR INPATIENT
    SERVICES PROCESSED BY
PALMETTO GBA, INTERMEDIARY
     #382, FOR THE PERIOD
  JANUARY 1, 2004, THROUGH
      DECEMBER 31,2005




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-04-07-06023
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops.and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII ofthe Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS's Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary's stay is
assigned. The "Medicare Claims Processing Manual," Pub. No. 100-04, Chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
Chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Also, section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high costs.

During calendar years (CY) 2004 and 2005, Palmetto GBA (Palmetto) was the fiscal
intermediary in North Carolina. Palmetto processed 207 claims during this period which resulted
in payments of $200,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for inpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 207 high-dollar payments that Palmetto made to hospitals for inpatient services for CYs
2004 and 2005, 74 were appropriate. The remaining 133 payments included overpayments
totaling $844,985 that had not been repaid at the start of our audit.

Contrary to Federal guidance, hospitals reported units of service inaccurately and reported
excessive charges resulting in inappropriate outlier payments. Hospitals attributed most of the
incorrect claims to clerical or system errors in either the pharmacy or billing system. Palmetto
made these incorrect payments because neither the Fiscal Intermediary Standard System nor the
CWF had sufficient edits in place in CYs 2004 and 2005 to detect the overpayments.
RECOMMENDATIONS

We recommend that Palmetto:

    •   recover the $844,985 in identified overpayments;

    •   use the results of this audit in its provider education activities related to proper
        documentation and data entry procedures; and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

PALMETTO GBA COMMENTS

In its written comments on our draft report, Palmetto agreed to recover the $844,985 in
overpayments. Palmetto stated that it would use the results of this audit to enhance its existing
provider education activities. Additionally, Palmetto stated that it would implement controls to
identify and review all payments greater than $200,000 for inpatient services. The complete text
of Palmetto's comments is included as the Appendix.




                                                   11
                               TABLE OF CONTENTS




INTRODUCTION                                       1

  BACKGROUND                                       1
    Medicare Fiscal Intermediaries                 l
    Claims for Inpatient Services                  l
    Palmetto GBA                                   2

  OBJECTIVE, SCOPE, AND METHODOLOGY                2
    Objective                                      2
    Scope                                          2
    Methodology                                    2

FINDINGS AND RECOMMENDATIONS                       3

  FEDERAL REQUIREMENTS                             3

  INAPPROPRIATE HIGH-DOLLAR PAYMENTS               .3

  CAUSES OF INCORRECT PAYMENTS                     4

  RECOMMENDATIONS                                  4

  PALMETTO GBA COMMENTS                            4

APPENDIX

 PALMETTO GBA COMMENTS




                                       111
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare Part
A claims submitted by hospitals. The intermediaries' responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS's Common
Working File (CWF) to process hospitals' inpatient claims. The CWF can detect certain
improper payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid approximately
27 million inpatient claims, 5,125 of which resulted in payments of $200,000 or more (high-
dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary's stay is assigned. The DRG payment is, with certain exceptions, payment
in full to the hospital for all inpatient costs associated with the beneficiary's stay. The "Medicare
Claims Processing Manual," Pub. No. 100-04, Chapter 3, section 10.1, requires that hospitals
submit claims on the appropriate forms for all provider billings, and Chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

Also, section 1886(d)(5)(A)(ii) of the Act provides for an additional Medicare payment, known
as an outlier payment, to hospitals for cases incurring extraordinarily high costs.! The Medicare
fiscal intermediary identifies outlier cases by comparing the estimated costs of a case with a
DRG-specific fixed-loss threshold. 2 To estimate the cost of a case, the fiscal intermediary uses
the Medicare charges that the hospital reports on its claim and the hospital-specific cost-to-
charge ratio. Inaccurately reporting charges could lead to excessive outlier payments.




IOutlier payments occur when a hospital's charges for a particular Medicare beneficiary's inpatient stay
substantially exceed the DRG payment.

2A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                          1
Palmetto GBA

During CY 2004 and 2005, Palmetto GBA (Palmetto) was the fiscal intermediary in North
Carolina. Palmetto processed 207 high-dollar inpatient claims during this period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for inpatient services were appropriate.

Scope

We reviewed the 207 high-dollar inpatient payments, which totaled $61,726,948, for inpatient
claims that Palmetto processed during CYs 2004 and 2005. We limited our review of Palmetto's
internal controls to those controls applicable to the 207 high-dollar claims because our objective
did not require an understanding of all internal controls over the submission and processing of
claims. Our review allowed us to establish a reasonable assurance regarding the authenticity and
accuracy of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

We performed our fieldwork from July 2007 through May 2008. Our fieldwork included
contacting Palmetto, located in Columbia, South Carolina, and the hospitals that received high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS's National Claims History file to identify Medicare Part A inpatient claims
        with high-dollar payments;

   •    reviewed available CWF claims histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by a revised claim or
        whether the payments remained outstanding at the time of our fieldwork;

   •    contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect; and

    •   validated with Palmetto that partial overpayments occurred and refunds were appropriate.




                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the 207 high-dollar payments that Palmetto made to hospitals for inpatient services for CYs
2004 and 2005, 74 were appropriate. The remaining 133 payments included overpayments
totaling $844,985 that had not been repaid at the start of our audit.

Contrary to Federal guidance, hospitals reported units of service inaccurately and reported
excessive charges resulting in inappropriate outlier payments. Hospitals attributed most ofthe
incorrect claims to clerical or system errors in either the pharmacy or billing system. Palmetto
made these incorrect payments because neither the Fiscal Intermediary Standard System nor the
CWF had sufficient edits in place in CYs 2004 and 2005 to detect the overpayments.

FEDERAL REQUIREMENTS

The "Medicare Claims Processing Manual," Pub. No. 100-04, Chapter 3, section 10.1, requires
that hospitals submit claims on the appropriate forms for all provider billings, and Chapter 1,
section 80.3.2.2, requires that claims be completed accurately to be processed correctly and
promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital's charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Palmetto made 133 overpayments totaling $844,985 that hospitals had not refunded prior to the
start of our audit. Hospitals received those overpayments by reporting excessive units of service
and excessive charges resulting in inappropriate outlier payments. The following examples
illustrate the overpayments:

    •   A hospital billed 24 claims with a total of 191,567 units instead of 184,638 units
        delivered because staff made errors in computing chargeable time units (e.g., operating
        room minutes, ventilator days, and inhalation treatments) and billed. for more units than
        were documented in the clinical records. As a result, Palmetto paid the hospital
        $5,844,296 when it should have paid $5,528,043, an overpayment of$316,253.




                                                 3
    •    A hospital billed 53 claims with a total of 492,884 units rather than 473,860 units
         delivered because clerical staff billed for more units than were documented in the clinical
         records. As a result, Palmetto paid the hospital $17,317,926 when it should have paid
         $17,167,391, an overpayment of$150,535.

CAUSES OF OVERPAYMENTS

Hospitals attributed most of the incorrect claims to clerical or system errors in either the
pharmacy or billing system. Palmetto made the incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place to detect and prevent the
overpayments. In effect, CMS relied on hospitals to notify the fiscal intermediaries of excessive
payments and on beneficiaries to review their "Explanation of Medicare Benefits" and disclose
any overpayments. 3

RECOMMENDATIONS

We recommend that Palmetto:

     •   recover the $844,985 in identified overpayments;

     •   use the results of this audit in its provider education activities related to proper
         documentation and data entry procedures; and

     •   consider implementing controls to identify and review all payments greater than
         $200,000 for inpatient services.

PALMETTO GBA COMMENTS

In its August 18, 2008, written comments on our draft report, Palmetto agreed to recover the
$844,985 in overpayments. Palmetto stated that it would use the results of this audit to enhance
its existing provider education activities. Additionally, Palmetto stated that it would implement
controls to identify and review all payments greater than $200,000 for inpatient services. The
complete text of Palmetto's comments is included as the Appendix.




3The fiscal intermediary sends an "Explanation of Medicare Benefits" notice to the beneficiary after the hospital
files a claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          4
APPENDIX
                                                                                                    APPENDIX
                                                                                                     Page 1 of2




             Palmetto                  GBA,~                                                   Bruce VII, Hughes
                                                                                              ::h:):f C,;')nii,:Unq <)'!::CGI'




August 18, 2008


Peter J. Barbera
Regional Inspector Geneml t'orAudit Services
Department of Health and Human Services
Office ofInspector Gtmeral
61 Forsyth Strcet, S.W,. Suite 31'41
Atlanta. Georgia 30303

Reference: Draft Report No. A-04-07-06023

Dear Mr. Barbera:

This letter is in response to the recent Office ofInspcctor General (DIG) draft report entitled "Review of
High,.Dollar Payments for Inpatk'1lt Services Processed by Palmetto GBA, Intermediary #382, for the
Period January I, 2004, ThroughDecembt.~r 31, 2005." We appreciate the feedback that your review
provided and are committed to continuously improving our service to the Medicare beneficiaries and
providers we serve.

As stated in the drafl report, overall it was thund that 133 of the 207 inpatient claims reviewed resulted
in overpa>'fficnts totaling $844,985. It was determined that the hospitaL'! inaccurately reported. units of
st."rvice. The hospitals attributed the incorrect claims to clerical errors or pharmacy systems with
calculation errors in the billing template. At the time, Palmetto OBA made the overpayments because it
did not have prepayment or p()~'tpaymel1t controls to identifY aberrant payments at the obum level. In
addition, neither the Fiscal Intermediary Standard System nor tbl~ Common Working FHe bad sufficient
edits in place during calendar years 2004 and 200S to detect and prevent excessive payments.

Palmetto GBA will adhere to the recommendation of implementing controls to identifY and review all
payments greater than $200.000. Typically the review of records to substantiate level of service, (Le.
medical necessity of an inpatient admission, length of stay. and certain procedures) is the responsibility
of the QIO, However, we continue to explore opportunities to expand and implt.'mcnt additional
prepayment edits to mitigate excessive payments

Palmetto GBA will also adhere to tbe recommendations set forth by the DIG review to recover the
$844,985 in identified overpayments. Palmetto QBA will adjust the 133 claims and aU providers will be
notified of the anticipated adjustment. We anticipate timely completion of all adjustments upon receipt
of claims listing,

In addition, Palmetto GBA maintains a e<)Usistent approach in our provider education strategy focusing
on accurate billing, documentation of claims data ",,'ith emphasis on claims data reflecting the services
provided are medically reasonable and necessary. In 2007, we proactively implemented a reason code
to perfoml an assessment of high dollar claims, 70045 - Review for Possible Overpayment. Provider
outreach and education was completed relevant to billing and the implementation of reason code 70045.

                                                        I.
                                  wWV\lpalm",Uogb<l,(;vm POlll Offill<; Sox 100134
                                         ISO 9001 :2000 Columbia. South Carolina 29202-3134
                                                                                                    APPENDIX
                                                                                                     Page 2 of2

Peter J. Barbera
August 18,2008
Page 2



    Articles wel'epubHshed that addressed the bigh dollar t.'dit and the application to all bill types. In
    addition, we presented practical information for use when ming high dollar claims in our 2007 Summer
    Hospital Workshop and North Carolina hospital state association quarterly meeting. Palmetto GHA
    continues to take a very tangihle approach to provider education delivering clear, cnncise, and timely
    instruction in all possible educational venues.

    Future educational efforts will be further enhanced to leverage data from this review in order to perform
    targeted tu'Cas of billing relevant to high-dollar paymcnt$ 1ur inpatient services. We intend to cover this
    topic in our ACT call on September, 11, 2008; develop an enhanced provider education article tor the
    Palmetto GBA wehsite as well as, include an article in the next monthly Medicare Advisory.

    numk you for providingPalm.etto ORA with the opportunity ttl provide feedback regarding your
    review. If you have any questions, please do not hesitate to contact me at 803··763-7130.


                                                         Sincerely,


                                                 -1SN-~ w-'J.. ~

    cc:    Sandra Y. Brmvn, Atlanta Regional Office, eMS
           John Delaney, Dallas Central Office, eMS
